UNITED STATES SUPREME COURT

 

DAVID TACHAY HEARD, )
) Case No.
Petitioner, )
) MOTION FOR LEAVE TO
v. ) PROCEED IN FORMA
) PAUPERIS
UNITED STATES OF AMERICA, _ )
)
Respondent. )

 

COMES NOW the Petitioner, by counsel, and for this motion
respectfully states to the Court as follows:

1. Pursuant to Rule 39 of the Rules of this Court, the Petitioner
asks leave to file the attached Petition for Writ of Certiorari, without
prepayment of costs, and to proceed in forma pauperis.

2. The Petitioner was represented by the undersigned counsel who
was appointed by the United States Court of Appeals for the Eighth Circuit

pursuant to 18 U.S.C. Section 3006(a) (the Criminal Justice Act).

    

By:
Raphael M. Scheetz,
425 Second Street S.E.
Suite 1010

Cedar Rapids, lowa 52401
319-378-7416
scheetzlaw@aol.com
ATTORNEY FOR PETITIONER
